"Review of the Office for Civil Rights' Fiscal Year 1999 Government Performance and Results Act Report," (A-12-00-00009)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Office for Civil Rights' Fiscal Year 1999 Government Performance
and Results Act Report," (A-12-00-00009)
June 8, 2001
Complete
Text of Report is available in PDF format (1.52 mb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the Office for Civil Rights (OCR) did not
accurately report FY 1999 performance results and did not have an adequate system
for validating the information presented in its performance report.  Our
conclusion was based on exceptions we found in a judgmental sample of 63 of
209 review or investigation dockets.   We recommended that OCR:  (1)
issue guidance to its regional offices to ensure that performance results are
accurately and consistently reported; (2) enhance its data validation process
to ensure that future performance results are reliable; and (3) review and,
where appropriate, clarify the explanations and description of performance measures
and reported results in future performance plans.  The OCR is taking steps
to improve the accuracy and verification of data in the FY 2000 GPRA report
and subsequent years' reports.